No. 20-216

In The

Supreme Court of the United States
____________
PRIANKA BOSE,
Petitioner,
v.
RHODES COLLEGE AND ROBERTO DE LA SALUD BEA,
____________

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
____________
BRIEF OF LEGAL MOMENTUM, THE WOMEN’S LEGAL DEFENSE
AND EDUCATION FUND, AND OTHER WOMEN’S RIGHTS AND CIVIL
RIGHTS ORGANIZATIONS AS AMICI CURIAE IN SUPPORT OF
PETITIONER
____________
CERTIFICATE OF SERVICE
I, Michael E. Bern, counsel for Amicus Curiae Legal Momentum and a member
of the Bar of this Court, hereby certify that on the 24th day of September, 2020, one
(1) copy of the Brief of Legal Momentum, the Women’s Legal Defense and Education
Fund, and Other Women’s Rights and Civil Rights Organizations as Amici Curiae in
Support of Petitioner, filed in the above-entitled case, was sent by first-class mail,
postage prepaid, upon counsel for Petitioner and Respondents as listed below:
Allon Kedem
Arnold & Porter Kaye Scholer LLP
601 Massachusetts Avenue, NW
Washington, DC 20001
(202) 942-6234
allon.kedem@arnoldporter.com
Counsel for Petitioner

Lisa S. Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com
Counsel for Respondents
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief of Legal Momentum, the Women’s Legal Defense and Education
Fund, and Other Women’s Rights and Civil Rights Organizations as Amici Curiae in
Support of Petitioner was transmitted to each above-listed counsel via the referenced
email addresses.
I further certify that all parties required to be served have been served.

By
Michael E. Bern
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
michael.bern@lw.com
Counsel for Amicus Curiae Legal
Momentum

2

